Supreme Court, U.S.
FILED

SEP 2 8 2021
IN THE
SUPREME COURT OF THE UNITED STATES
NO.
JASON BROOKS
Petitioner,

-vs-

COLORADO PAROUE BOARD,
Respondents.

ORIGINALLY FILED WRIT OF HABEAS CORPUS

Jason Brooks Pro Se
636 Barberry Drive
Longmont, CO 80503

OFFICE OF THE CLERK

QUESTIONS PRESENTED
The Colorado Attorney General has conceded, sub silentio, that Petitioner
likely stands convicted of an act the law does not make criminal yet is drowning
Petitioner in a procedural morass to prevent his being able to obtain his freedom.
Prior to this Court’s decision in Class v. United States. 138 S. Ct. 798 (2018),
Colorado precedents precluded Petitioner from being able to challenge the
constitutionality of his statute of conviction in toto because he plead guilty.
However, using the look through presumption federal habeas courts must employ,
the Court will witness that Colorado’s Supreme Court has both procedurally barred
Brooks from challenging the constitutionality of Colorado’s Securities Act, while
simultaneously holding Petitioner “has other remedies” available to adjudicate his
actual innocence claims, which simply do not exist. The Colorado Supreme Courts
irreconcilable conflict on the matter cannot be harmonized, establishing the State is
attempting to time-bar Brooks actual innocence claims ever having to be
adjudicated. In addition, the Anti-Terrorism Effective Death Penalty Act of 1996
(“AEDPA”) has numerous gatekeeping provisions, all of which have also precluded
Petitioner from having his actual innocence claims adjudicated on their merit.
Consequently, the Suspension Clause is clearly indicated in this circumstance
because refusing to hear Brooks actual innocence claims would constitute a
complete denial of any collateral review of a claim that arose only after the decision

in Class was announced. Because on the face of the record the State court had no
power to enter the conviction or impose the sentence in this case, this Court must
answer:
(i)

Whether a freestanding claim of actual innocence can overcome
AEDPA’s gatekeeping provisions and/or whether a prisoner may be
entitled to federal habeas relief based on a freestanding claim of actual
innocence?

(2)

Whether the State of Colorado had the power to enter the conviction or
impose the sentence in this case, including:
(a) Whether Brooks was involved in selling securities?
(b) Whether the State of Colorado had jurisdiction to Indict
Brooks?
(c) Whether criminal enforcement of the Colorado Securities Act
(“CSA”) is unconstitutionally vague, overbroad, and is
criminalizing otherwise innocent conduct?

PARTIES
The petitioner is Jason Brooks, an inmate recently released from physical
custody on August 16, 2021, now serving the mandatory parole portion of his
sentence. The respondents are the Colorado Parole Board.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

v

DECISIONS BELOW

1

JURISDICTION

2

REASONS FOR NOT MAKING APPLICATION TO DISTRICT COUT AS
REQUIRED BY 28 U.S.C. § 2242

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

6

BASIS FOR FEDERAL JURISDICTION

10

REASONS FOR GRANTING THE WRIT

11

I. The Court Should Decide Whether a Freestanding Claim of Actual
Innocence Can Survive AEDPA’s Gatekeeping Provisions?
II.

11

The Face of the Record Establishes Brooks was Not Involved in Selling

Securities.

16
m

III.

The State of Colorado Lacked Jurisdiction to Prosecute Brooks under the

CSA

27

IV. The CSA Lacking a Scienter Requirement Conflicts with Thoroughly
28

Established Constitutional Law
A.

Conflicts with Decisions of This and Other Courts

30

B.

Importance of the Questions Presented

32

36

CONCLUSION
APPENDICIES

IV

TABLE OF AUTHORITIES
Cases

Aaron v. SEC. 446 U.S. 680 (1980)

9, 30, 33,34

Basic Inc, v. Levinson. 485 U.S. 224 (1988)

20,21

Bell v. Simpson. 918P.2d 1123 (Colo. 1996)

2

Black Diamond Fund, LLLP v. Joseph„ 211 P.3d 727 (Colo. App. 2009)

8

Blackledze v. Perry. 417 U. S. 21 (1974)

15

Bouslev v. United States. 523 U.S. 614 (1998)................................

6, 11,13

Brooks v. Archuleta. 839 Fed. Appx. 287 (10th Cir. March 7, 2021)

1,3,13

Brooks v. Executive Director of CDOC. Case No. 2020SA385 (Colo. 2020)

1

Cazle v. Mathers Family Trust. 2013 CO 7

8

Calderon v. Thompson» 523 U.S. 538 (1998)

13

Ceflf.

AM. v. First Interstate Bank, NA.. 114 S. Ct. 1439 (1993)

Chiarella v. United States. 445 U.S. 222 (1980)

20, 26
20

Ctos v. United States. 138 S. Ct. 798 (2018)

passim

Coleman v. Thompson. 501 U.S. 722 (1991)

12

Pav/5 v. United States. 417 U.S. 333 (1974)

11

P/rfo v. £gC. 463 U. S. 646, 667 (1983)

20

Doctor's Assocs., Inc. v. Casarotto. 517 U.S. 681 (1996)
Dretke v. Haley. 541 U.S. 386 (2004)

7

15

Ernst & Ernst v. Hochfelder* 425 U.S. 185 (1976)

9, 30, 34

Fay v. JVcHfl. 372 U.S. 391 (1963)

3

Felkerv. Turpin. 518 U.S. 651 (1996)

2

Francis v. Franklin, 471 U.S. 307 (1985)
Hensley v. Municipal Court. 411 U.S. 345 (1973)
ZZem?ra v. Co///tty. 506 U.S. 390 (1993)

16
3

11, 12

House v. £e//. 547 U.S. at 537-538 (2006)

13

Zh re Brooks. No. 16-1052, 2016 U.S. App. LEXIS 23786 (10th Cir. 2016)

10

Zw re Brooks. No. 19-1251 (10th Cir. Aug. 7, 2019)....................................

1

In re Winshiv. 397 U.S. 358 (1970)

35

In Re: Brooks v. People. 2020SA45 (Colo. 2020)

2

In re: Marvin. Case No. XY-07-04, 2008 Colo. Sec. LEXIS 29

29

Johnson v. United States. 135 S. Ct. 2551 (2015)

17

Jones v. Cunningham. 371 U.S. 236 (1963)

3

Keeney v. Tamayo-Reyes. 504 U.S. 1 (1992)

12

Kuhlmann v. Wilson. 477 U.S. 436 (1986)

12

Kums v. ■&./?. Friction Prods. Corp.. 132 S. Ct. 1261 (2012)

27

Mackey v. United States. 401 U.S. 667 (1971)

14

VI

Marine Bank v. Weaver„ 455 U.S. 551 (1982)
McCleskev v. ZanL 499 U.S. 467 (1991)

19, 24
12

McOuizsin v. Perkins. 569 U.S. 383, 392-393 (2013)
Meardon v. Freedom Life Ins. Co. ofAm.. 2018 COA 32
Menna v. New York. 423 U. S. 61 (1975)
Mit. Motors Corp. v. Soler-Chrysler-Ply, Inc.. 473 U.S. 614 (1985)

11, 14
7, 28
15
7, 25,28

Morissette v. United States„ 342 U.S. 246 (1952)

29

Murray v. Carrier. All U.S. 478 (1986)

12

Neuhaus v. People. 2012 CO 65

14

People ex rel. D.S.. 2012 COA 199

2

People in Interest ofJP.L214 P.3d 1072 (Colo. App. 2009)

2

People v.

195 Colo. 462 (Colo. 1978)

9, 29

People v. Brooks. 19CA2028, (Colo. App. 2020)

1

People v. Butler„ 251 P.3d 519 (Colo. App. 2010)

14

People v. Daley. 97 P.3d 295 (Colo. App. 2004)
People v. Mendenhall. 2015 COA 107M

2
6, 16, 17, 27

People v. Neuhaus. 240 P.3d 391 (Colo. App. 2009)

14

Peop/e v. Pharr. 696 P.2d 235 (Colo. 1984)

14

People v. PrendersasL 87 P.3d 175 (Colo. App. 2003)
People v. Riley. 708 P.2d 1359 (Colo. 1985)
Vll

8
8, 10

8

People v. Rivera. 56 P.3d 1155 (Colo. App. 2002)

32

People v. Salas. 37 Cal. 4th 967 (2006)
People v. Simon. 9 Cal. 4th 493, 886 P.2d 1271 (Cal. 1995)

9,31,32

People v. Terranova. 38 Colo. App. 476 (Colo. App. 1976)

8
22

Perry v. Sindermann. 92 S. Ct. 2694 (1972)

10, 29, 30

Rehaifv. United States. 139 S. Ct. 2191 (2019)
Reves v. Ernst & Young. 494 U.S. 56 (1990)

6,18, 20, 24

Rod de Ouiias v. Shearson/An Express. Inc.. 490 U.S. 477 (1989)

7, 25,27,28
8

Rosenthal v. Dean Witter Reynolds. /ac. . 883 P.2d 522 (Colo. App. 1994)
Sawyer v. Whitley. 505 U.S. 333 (1992)

12

Sc/i/mp v. Delo. 513 U.S. 298, (1995)

13

SEC v. Cove;?. 581 F.2d 1020 (CA2 1978), cert denied, 440 U.S. 950 (1979)

33

Shearson/American Express v. McMahon. 482 U.S. 220, 229 (1987)

7, 25

Teague v. Lane. 489 U.S. 288 (1989)

14

Teamsters v. Daniel. 439 U.S. 551 (1979)

19
6,16, 18, 20,21,23

Thompson v. People. 2020 CO 72

United States v. Beniamin. 328 F.2d 854 (CA2), cert denied sub nom. Howard v.
33

United States. 377 U.S. 953 (1964)
United States v. Broce. 488 U. S. 563 (1989)
United States v. McKye. 734 F.3d 1104 (10th Cir. 2013)
Vlll

6,35
16

United States v. X-Citement Video. 530 U.S. 64, 72 (1994)
West v. Roberts. 143 P.3d 1037 (Colo. 2006)

29,30
25

Wilson v. Sellers. 138 S. Ct. 1188 (2018)

4

Withrow v. Williams. 507 U.S. 680 (1993)

32

Constitutional Provisions
passim

U. S. Const., Art. I, § 9, cl. 2

6, 16, 26

U. S. Const.,Art. VI, cl. 2

5

U. S. Const., Art. VIII

5, 16,30, 32

U. S. Const., Art. XIV, § 1

Statutes
2

28 U.S.C. § 1651
Colo. Rev. Stat. § 11-51-101(3)

28

Colo. Rev. Stat. § 11-51-201(17)

25

Colo. Rev. Stat. § 11-51-501(1)

28

Colo. Rev. Stat. § 11-51-602(2)

9, 28

Colo. Rev. Stat. § 11-51-603(1)

29

Colo. Rev. Stat. § 11-51-604(3)

9, 28
22

Colo. Rev. Stat. § 5-12-103

18, 24

15 U.S.C. §78c(a)(10)
IX

15 U.S.C. §78j

8

28 U.S.C. § 1257(a)

2

28 U.S.C. §§2241-2266

passim

28 U.S.C. §2242

2

28 U.S.C. § 2254

3
27

9 U.S. C. §2

7

9 U.S.C. §§ 1-16

Rules
Colorado Appellate Rule 21

1,2
passim

Fed. R. Civ. P. 60(b)(6)

Regulations
8

17C.F.R. §240.10b-5

X

DECISIONS BELOW
The Tenth Circuit Court of Appeals decision denying authorization for
Petitioner to file a second or successive habeas application premised upon the
decision in Class, inter alia, is unreported; a copy of the decision is attached as
Appendix A to this petition. See In re Brooks. No. 19-1251 (10th Cir. Aug. 7, 2019).
The Tenth Circuit Court of Appeals decision denying Petitioner the ability to reopen
his original judgment pursuant to Rule 60(b)(6) premised upon the decision in Class
is found at Brooks v. Archuleta. 839 Fed. Appx. 287, 288 (10th Cir. March 7, 2021);
a copy of the decision is attached as Appendix B to this petition. The order of
Colorado Supreme Court (“CSC”) refusing to exercise jurisdiction over Brooks
originally filed habeas corpus petition pursuant to Colorado Appellate Rule 21 is
unreported; a copy of the judgment without an opinion is attached as Appendix C to
this petition. See Brooks v. Executive Director ofCDOC. Colo. Supreme Court Case
No. 2020SA385, Order of Court, December 23, 2020 (EN BANC). The Colorado
Court of Appeals (“CCOA”) determining the decision in Class does not establish
good cause, justifiable excuse, or excusable neglect to allow an out-of-time filing of
a direct appeal is unreported; a copy of the decision is attached as Appendix D to
this petition. See People v. Brooks. 19CA2028, Order of Court, February 4, 2020,
The decision of the CSC upholding the CCOA’s decision precluding the out-of-time
direct appeal premised upon the announcement of Class is unreported; a copy of the
l

judgmentError! Bookmark not defined, is attached as Appendix E to this petition.
See In Re: Brooks v. People. 2020SA45, Order of Court, March 6,2020 (EN BANC)
JURISDICTION
The order of the CSC declining to exercise jurisdiction over Brooks originally
filed habeas corpus petition without a decision was entered on December 23, 2020.
See People ex rel D.S.. 2012 COA 199, ^ 8 (citins Bell v. Simpson. 918 P.2d 1123,
1125 n.3 (Colo. 1996) (“An order of the supreme court declining to exercise its
original jurisdiction under C.A.R. 21 is not a review on the merits of the claims
presented.”); accord People in Interest of JP.L.. 214 P.3d 1072, 1077 (Colo. App.
2009); People v. Daley. 97 P.3d 295, 297 (Colo. App. 2004). Jurisdiction thus could
not be conferred by 28 U.S.C. § 1257(a). However, since Petitioner is alleging a
free-standing claim of actual innocence, this Courts Rule 20 (procedure for petitions
for extraordinary writs) is the appropriate mechanism in this circumstance, granting
the Court original jurisdiction over this petition pursuant to the All Writs Act, 28
U.S.C. § 1651. See also Felkerv. Turpin„ 518 U.S. 651 (1996).
REASONS FOR NOT MAKING APPLICATION TO DISTRICT COUT AS
REQUIRED BY 28 U.S.C. § 2242
Petitioner has requested both authorizations to file a second or successive
habeas petition and for the ability to reopen his original judgment pursuant to Rule
60(b)(6). The Tenth Circuit, however, has denied both requests and opined it could
2

not even consider the merits of Brooks actual innocence claims due to AEDPA’s
procedural technicalities. See Brooks„ 839 Fed. Appx. at 287-88 (“the question
before us is not whether Mr. Brooks presented a meritorious motion under Rule
60(b)(6); the question is whether he presented a motion under Rule 60(b)(6) at all.”).
Thus, if Petitioner attempted to file another habeas petition premised upon his actual
innocence claims in the U.S. District Court for the District of Colorado, it would be
procedurally barred for lack of jurisdiction. Moreover, Petitioner has been
discharged from imprisonment and is now serving his mandatory parole term, which
can be discharged at any time. Petitioner being placed on parole, however, still meets
the jurisdictional requirements for purposes of habeas corpus. See Jones v.
Cunningham. 371 U.S. 236, 243 (1963); Cf Hensley v. Municipal Court« 411 U.S.
345 (1973) (less restrictive restraints imposed on person released on own
recognizance following conviction are in custody within the meaning of 28 U.S.C.
§ 2254). Resultantly, further delays in having to rule on the merits of Brooks’ actual
innocence claims would eventually lead to Petitioner lacking standing to ever bring
a habeas corpus challenge, as he will eventually no longer be “in custody” de facto
once discharged from his mandatory parole term.
The writ of habeas corpus’ “function has been to provide a prompt and
efficacious remedy for whatever society deems to be intolerable restraints.” Fay v.
Noia. 372 U.S. 391, 401 (1963). Further continuation of the current procedural
3

morass would eventually lead to an outright denial of consideration of Petitioners
actual innocence claims, violating the Suspension Clause. However, even if there
were a state remedy available for Brooks to adjudicate his actual innocence claims
(which simply do not exist1), the CSC not allowing Brooks to use the writ of habeas
corpus to adjudicate his actual innocence claims is a pro tanto suspension of the
great writ regardless. Additionally, applying the “look through” presumption this
Court is required to employ under federal habeas law, it is undisputed the CSC
upheld the COA’s ruling that the decision in Class would not constitute good cause,
justifiable excuse, or excusable neglect under Colorado law to permit a late
postconviction filing. See Wilson v. Sellers, 138 S. Ct. 1188,1192 (2018) (“We hold
that the federal court should ‘look through’ the unexplained decision to the last
related state-court decision that does provide a relevant rationale.”); “looking
through” to the decisions in 19CA2028; 2020SA45. Hence, Brooks has no ability to
raise the claim in State court as a matter of law, as it is undisputed Brooks has no
State court remedies available. Furthermore, because the CSC will not permit

1 All Colorado Courts, including the CSC, have set the law of the case on whether Brooks has any
state postconviction remedies still available, repeatedly noting he has been procedurally barred
from filing state postconviction motion since 2014. See attached decisions in Appendix F;
People v. Brooks. No. 19CA1032 at 12(Colo. App. February 6, 2020)(noting that “[although
Brooks argue that Brooks II was wrongly decided, the Colorado Supreme Court denied certiorari
review of that ruling, at which time Brooks II became the law of the case); People v. Brooks. No.
18CA0336 at % 9 (Colo. App. March 28, 2019) (noting “Brooks is not entitled to relief [under
Crim.P. 35(c)] because the motion was untimely”); see also People v. Brooks. No. 16CA0755
(Colo. App. June 29, 2017).
4

Brooks to use CHCA to adjudicate his actual innocence claims, Petitioner’s right to
the writ of habeas corpus has been unconstitutionally suspended ad infinitum.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case includes: the Suspension Clause of the First Amendment to the
United States Constitution, which provides, “[t]he Privilege of the Writ of Habeas
Corpus shall not be suspended, unless when in Cases of Rebellion or Invasion the
public Safety may require it.” U. S. Const., Art. I, § 9, cl. 2. The Fourteenth
Amendment to the United States Constitution, which provides that, “[n]o State shall
make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws." U. S. Const., Art. XIV, § 1. Moreover, because
Petitioner is not guilty of any criminal act, his punishment violates the Eight
Amendment to the United States Constitution, which holds “[e]xcessive bail shall
not be required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.” U. S. Const., Art. VIII. Lastly, the case involves the Supremacy Clause,
which holds “[t]his Constitution, and the Laws of the United States which shall be
made in Pursuance thereof; and all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme Law of the Land; and the Judges

5

in every State shall be bound thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.” Art. VI, cl. 2.
STATEMENT OF THE CASE
Brooks’ claims of actual innocence are premised upon three separate and
distinct claims, each of which would nullify Petitioner’s conviction in toto
individually. See Bouslev v. United States. 523 U.S. 614, 623-624 (1998) (“Actual
innocence in this context refers to factual innocence and not mere legal
sufficiency”). First, “on the face of the record the Court had no power to enter the
conviction or impose the sentence [in this case],” Class. 138 S. Ct. at 806 (quoting
United States v. Broce. 488 U. S. 563, 569 (1989), because: (1) Brooks was not
involved in selling securities de facto, using the “family resemblance test” from this
Court’s holding in Reves v. Ernst & Young* 494 U.S. 56, 64-67 (1990) ; (2) the
definition of a note pursuant to § 11-51-201(17) C.R.S. remains unconstitutionally
vague under the CSA; and (3) “[i]f there is no security, there cannot be securities
fraud.” People v. Mendenhall. 2015 COA 107M, | 2; see also at, \ 40 (“the court
committed constitutional error by failing to provide a complete and accurate
definition of the term ‘note’”). Additionally, the CSC did not adopt the “family
resemblance test” from 7teves_(thus adopting the holding in Mendenhall) until its
announcement in Thompson v. People„ 2020 CO 72, made September 14, 2020.
Thus, Brooks complete claims could even be challenged until after that time.
6

Second, the State of Colorado lacked jurisdiction to prosecute Brooks under
the CSA because it remains undisputed every single investor in the case agreed to
arbitrate any claims arising from breach of the agreements between Brooks and his
investors to a tribunal, not judicial forum, as will be discussed, infra. Thus, Colorado
courts have conceded the Federal Arbitration Act (“FAA”), 9 U.S.C. §§ 1-16, has
“precluded States from singling out arbitration provisions for suspect status,
requiring instead that such provisions be placed ‘upon the same footing as other
contracts.

Meardon v. Freedom Life Ins. Co. ofAm.. 2018 COA 32, ][ 21 (<quoting

Doctor's Assocs., Inc, v. Casarotto. 517 U.S. 681, 687 (1996)). “The FAA thus
displaces [state statutes] with respect to arbitration agreements covered by the Act.”
Ibid. This Court has also specifically held that arbitration provisions must be
enforced and are adequate means of enforcing the provisions of the Securities Acts,
while the Securities Exchange Commission has also specifically upheld arbitration
for securities. See Shearson/American Express v. McMahon. 482 U.S. 220, 229
(1987); Rodriguez de Ouiias v. Shearson/American Express. Inc.. 490 U.S. 477,481
(1989) (“by agreeing to arbitrate a statutory claim, a party does not forgo the
substantive rights afforded by the [Securities] statute[s]; it only submits to their
resolution in an arbitral, rather than a judicial, forum.”) (quoting Mitsubishi Motors
Cory, v, Soler-Chrvsler-Plvmouth, Inc.. 473 U.S. 614, 628 (1985)).

7

Third, the CSC has held “the anti-waiver provision in the CSA, section 1151-604(11), C.R.S., which prohibits waiving compliance with any other provision
of the CSA, did not embody a public policy thatprohibited aforum selection clause.”
Cagle v. Mathers Family Trust. 2013 CO 7, ^ 3. Thus, by the CSC’s own holding,
the State of Colorado lacked subject matter jurisdiction to prosecute Brooks. Cagle
further outlined the unambiguous language of the CSA, delineating, “[s]ection 1151-101(3) states that the CSA eshall be coordinated’ with the applicable federal acts
and statutes to which references are made in the article.” Id. at, ^ 24. Consequently,
because “[t]he language of the CSA shows the legislature’s intent that Colorado
securities law be coordinated with federal securities law, as evidenced by the
wording of section 11-51-101(3),” id. at, f 27, criminal enforcement of the CSA is
unconstitutional on its face and violated this Court’s explicit precedents on the
matter as:
(1)

It is undisputed the CSA is fashioned after Section 10(b) of the 1934
Securities Exchange Act, 15 U.S.C. § 78j, and Rule 10b-5 promulgated
by the SEC, 17 C.F.R. § 240.10b-5 ” Black Diamond Fund LLLP v.
Joseph. 211 P.3d 727, 735 (Colo. App. 2009) (citing People v. Riley.
708 P.2d 1359, 1363 (Colo. 1985)); People v. Terranova„ 38 Colo. App.
476, 480 (Colo. App. 1976); People v. Prender gast, 87 P.3d 175, 179
(Colo. App. 2003)); accord Rosenthal v. Dean Witter Reynolds, Inc..
883 P.2d 522, 526 (Colo. App. 1994); People v. Rivera. 56 P.3d 1155,
1163 (Colo. App. 2002).
8

(2)

Since the CSA follows federal law, under the 1934 Securities Exchange
Act, this Court has held a finding of specific intent to defraud (i.e.,
“scienter”) is a necessary element to find a defendant guilty of securities
fraud. See Ernst & Ernst v. Hochfelder, 425 U.S. 185 (1976); Aaron v.
SEC, 446 U.S. 680, 695 (1980) (“Scienter is a necessary element of a
violation of § 10 (b) and Rule 10b-5”). Consequently, eliminating
scienter in criminal securities fraud prosecutions, as has occurred under
the CSA, violates both Aaron and Hochfelder. Additionally, Colorado
erroneously omitted scienter from Colorado’s criminal statute under the
CSA, while it remains in civil recovery statutes, raising even more
constitutional concerns. Compare § 11-51-604(3), C.R.S. (“willfully”)
with § 11-51-602(2), C.R.S. (“scienter”) and § 11-51-604(3), C.R.S.
(“intent to defraud”).

(3)

The term “willfully” in Colorado securities fraud jurisprudence does
not include “[p]roof of evil motive or intent to violate the law, or
knowledge that the law was being violated.” People v. Blair, 195 Colo.
462, 468(Colo. 1978). Thus, Colorado courts have “erred, therefore, in
instructing that only a general criminal intent need be shown in the
crime of willfully offering or selling a security by means of a material
misrepresentation or omitting to state a material fact, and that a person
acts with general criminal intent [only] when he intentionally does that
which the law declares to be a crime.” People v. Simon, 9 Cal. 4th 493,
886 P.2d 1271, 1291 (Cal. 1995) (in banc).

Consequently, since criminal enforcement of the CSA does not require evil
intent, the statute is unconstitutional as applied to Brooks. Hence, “[i]f a statute is
9

either facially unconstitutional or unconstitutional as applied, a defendant would not
be subject to retrial.” Riley. 708 P.2d atl362. Therefore, since its undisputed Brooks
currently stands convicted of an act the law does not make criminal, this Court must
ask whether it can find “any convincing reason to [allow criminal convictions under
the CSA to] depart from the ordinary presumption in favor of scienter?” Rehaif v.
United States. 139 S. Ct. 2191, 2195 (2019).
BASIS FOR FEDERAL JURISDICTION
This Court’s precedents have long inferred that claims of actual innocence
cannot be procedurally barred because such interpretation would be an
unconstitutional reading of AEDPA’s gatekeeping provisions and violate the
Suspension Clause. In fact, Justice Gorsuch inferred in another of Brooks request to
file a second or successive habeas petition (in an unrelated case), when newly
accruing events occur after a habeas’ prior filing, a petitioner does not need
authorization to file a second or successive habeas petitions because, “[a]s a general
matter, a habeas petition asserting a newly accrued claim based on events occurring
after a prior petition is not second or successive.” In re Brooks. No. 16-1052, 2016
U.S. App. LEXIS 23786 at *3 (10th Cir. 2016) (citing James v. Walsh. 308 F.3d 162,
168 (2d Cir. 2002) (“Denial of habeas relief in the present case may implicate the
Suspension Clause, because it would constitute a complete denial of any collateral
review of a claim that arose only after James filed the 1997 petition.”). Hence, in
10

this case denial of habeas relief implicates the Suspension Clause because it would
constitute a complete denial of any collateral review of Brooks claims, which could
have only been challenged procedurally in Colorado after the decision in Class was
announced. Accordingly, Brooks claims of actual innocence must be adjudicated on
their merit because he has clearly established—that even if he was involved in selling
securities and even if the State had jurisdiction to prosecute Brooks—he currently
“stands convicted of ‘an act that the law does not make criminal.’” Bouslev. 523 U.S.
at 620 (quoting Davis v. United States, 417 U.S. 333,346 (1974)). As a result, this
Court cannot delay exercising its authority to adjudicate this petition, especially
since Brooks has been paroled and will eventually lack standing to bring a habeas
challenge, coupled with the Courts never “resolv[ing] whether a prisoner may be
entitled to habeas relief based on a freestanding claim of actual innocence.”
McOuiggin v. Perkins. 569 U.S. 383, 392-393 (2013) (quoting Herrera v. Collins,
506 U.S. 390, 404-405 (1993)).
REASONS FOR GRANTING THE WRIT
I.

The Court Should Decide Whether a Freestanding Claim ofActual
Innocence Can Survive AEDPA’s Gatekeeping Provisions?
Federal courts have always recognized that a prisoner “otherwise subject to

defenses of abusive or successive use of the writ [of habeas corpus] may have his
federal constitutional claim considered on the merits if he makes a proper showing
ll

of actual innocence.” Id., at 404 (citing Sawyer v. Whitley. 505 U.S. 333 (1992)); see
also Murray v. Carrier. 477 U.S. 478, 496 (1986) (“[W]e think that in an
extraordinary case, where a constitutional violation has probably resulted in the
conviction of one who is actually innocent, a federal habeas court may grant the writ
even in the absence of a showing of cause for the procedural default”). In other
words, federal courts have always presumed that a credible and/or prima facie
showing of actual innocence must allow a petitioner to pursue his constitutional
claims on their merit, irrespective of the existence of any procedural mechanisms
standing in the way of relief. “This rule, or fundamental miscarriage of justice
exception, is grounded in the ‘equitable discretion5 of habeas courts to see that
federal constitutional errors do not result in the incarceration of innocent persons.”
Herrera. 506 U.S. at 404 (quoting McCleskev v. Zant. 499 U.S. 467, 502 (1991)).
The miscarriage of justice exception to overcome various procedural defaults
include “successive” petitions asserting previously rejected claims, see Kuhlmann v.
Wilson- All U.S. 436, 454 (1986) (plurality opinion), “abusive” petitions asserting
in a second petition claims that could have been raised in a first petition, see
McCleskev. 499 U.S. at 494, failure to develop facts in state court, see Keeney v.
Tamayo-Reyes. 504 U.S. 1, 11-12 (1992), and failure to observe state procedural
rules, including filing deadlines, see Coleman v. Thompson. 501 U.S. 722, 750
(1991); Carrier. All U.S., at 495-496 . These miscarriage ofjustice exceptions have
12

survived AEDPA’s passage. In Calderon v. Thompson, 523 U.S. 538 (1998), the
Court has applied the exception to hold that a federal court may, consistent with
AEDPA, recall its mandate in order to revisit the merits of a decision. Id. at 558
(“The miscarriage of justice standard is altogether consistent...with AEDPA’s
central concern that the merits of concluded criminal proceedings not be revisited in
the absence of a strong showing of actual innocence.”). As indicted, however, the
Tenth Circuit precluded Petitioner from reopening his original judgment “for any
other reason that justifies relief’ under to Rule 60(b)(6), despite a showing of actual
innocence, and opined it could not even consider Brooks actual innocence claims
due to AEDPA’s gatekeeping provisions. See Brooks. 839 Fed. Appx. at 287-88
(“the question before us is not whether Mr. Brooks presented a meritorious motion
under Rule 60(b)(6); the question is whether he presented a motion under Rule
60(b)(6) at all. He did not.”). In Bouslev. 523 U.S. at 622, the Court held that actual
innocence may overcome a prisoner’s failure to raise a constitutional objection on
direct review. Most recently, in House v. BelL the Court reiterated that a prisoner’s
proof of actual innocence may provide a gateway for federal habeas review of a
procedurally defaulted claim of constitutional error. 547 U.S. at 537-538 (2006).
These decisions “see[k] to balance the societal interests in finality, comity, and
conservation of scarce judicial resources with the individual interest in justice that
arises in the extraordinary case.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
13

“Sensitivity to the injustice of incarcerating an innocent individual should not abate
when the impediment is AEDPA’s statute of limitations.” McOuiggin. 569 U.S. at
393.
Finally, in Teague v. Lane the Court held “new constitutional rules of criminal
procedure will not be applicable to those cases which have become final before the
new rules are announced,” 489 U.S. 288, 310 (1989), unless the new rule “places
‘certain kinds of primary, private individual conduct beyond the power of the
criminal law-making authority to proscribe/” id. at 311 (quoting Mackey v. United
States» 401 U.S. 667, 692 (1971), or could be considered a “watershed rule of
criminal procedure.” 489 U.S. at 311. The decision in Class would satisfy the Teague
doctrine in this case because prior to Class, in Colorado

“[a] valid, unconditional

guilty plea waives all non-jurisdictional objections, including allegations that
constitutional rights have been violated.” People v. Butler, 251 P.3d 519, 520 (Colo.
App. 2010) (quoting People v. Neuhaus, 240 P.3d 391, 393 (Colo. App. 2009);
affirmed by Neuhaus v. People, 2012 CO 65; accord People v. Pharr„ 696 P.2d 235,
236 (Colo. 1984)). However, these Colorado precedents, inter alia, have been
overruled by Class, which holds that a guilty plea by itself does not bar a criminal
defendant from challenging the constitutionality of the statute of conviction. See 138
S. Ct. at 803. Thus, unlike the defendants in Broce, Petitioner’s challenge does not
in any way deny that he engaged in the conduct to which he admitted. Instead, like
14

the defendants in Blackledge v. Perry. 417 U. S. 21 (1974) andMenna v. New York.
423 U. S. 61 (1975), he seeks to raise a claim which, “‘judged on its face’” based
upon the existing record, would extinguish the government's power to
“‘constitutionally prosecute’” Brooks if the claim were successful. Class. 138 S. Ct.
at 805-806 {citing Broce, supra, at 575) (quoting Menna. 423 U. S. at 62-63, and n.
2). Consequently, Petitioners claims do not fall within any of the categories that
Brooks’ plea agreement has forbid him to raise. Instead, they challenge the States
power to criminalize Brooks conduct, thereby calling into question the State’s power
to “constitutionally prosecute” him. Id. at 805 {citing Broce. 488 U. S. at 575)
(quotingMenna, 423 U. S. 61 at 61-62, n.2). While perhaps Brooks’ “innocence is
a mere technicality, [] that would miss the point. In a society devoted to the rule of
law, the difference between violating or not violating a criminal statute cannot be
shrugged aside as a minor detail.” Dretke v. Haley. 541 U.S. 386, 399-400 (2004).
The reasons the Court has never had the opportunity to decide whether a
freestanding claim of actual innocence can survive all AEDPA’s gatekeeping
provisions is because Courts have usually taken prima facie showings of actual
innocence seriously and find procedural mechanisms for a defendant to adjudicate
such claims on their merit. However, this case presents the quantum enigma in that
regard. Fundamentally, the fact that both the state and federal courts refuse to even

15

consider the merits of Brooks actual innocence claims should be a Red Flag indicator
that Brooks has, in fact, established a prima facie showing of invalid confinement.
II.

The Face of the Record Establishes Brooks was Not Involved in Selling
Securities.
“If there is no security, there cannot be securities fraud.” Mendenhall. 2015

COA 107M at K 2. At the time of Brooks indictment, “Colorado case law had not
directly addressed the issue of whether ‘any note’ is a security.” Thompson, supra,
at K 16. However, because Colorado is mandated to follow federal securities fraud
jurisprudence, the suggestion the law was not settled on what constitutes a security
is a simple fallacy. Additionally, when the CCOA announced for the first time in
Mendenhall (in 2015) that Colorado courts where “commit[ing] constitutional error
by failing to provide a complete and accurate definition of the term ‘note,’”
Mendenhall, supra at ^ 40, there can be no argument the statute was
unconstitutionally vague prior to its being settled, when Brooks was Indicted. Thus,
Brooks has been convicted by mandatory presumption, which has been held
unconstitutional by the Tenth Circuit in specific regards to securities fraud
jurisprudence. See United States v. McKve. 734 F.3d 1104,1109n. 5 (10th Cir. 2013)
(quoting Francis v. Franklin. 471 U.S. 307, 314- 15, 314 n.2 (1985) (“a mandatory
presumption, either conclusive or rebuttable, as to an element violates a defendant’s

16

due process rights because it conflicts with the prosecution’s burden to prove beyond
a reasonable doubt every fact necessary to constitute the crime charged”).
To make matters even worse, section 11-51-201, C.R.S. clarifies that all
definitions under the CSA are to be used “unless the context otherwise requires.”
However, this Court has held a note should “not be considered a security if the
context otherwise requires” Marine Bank v. Weaver. 455 U.S. 551, 558-59 (1982).
Since the definition of security under the CSA “means any note” pursuant to § 1151-201(17), C.R.S., it is undisputable the statute remains unconstitutionally vague
to this very day and needs to be corrected. “Invoking so shapeless a provision to
condemn someone to prison” for 32 years “does not comport with the Constitution’s
guarantee of due process.” Johnson v. United States, 135 S. Ct. 2551, 2558 (2015).
Not only is the definition of a security unconstitutional, but the face of record
also establishes Brooks was not involved in selling securities de facto. See attached
Grand Jury Indictment, Appendix G. The Essential Facts (“EF”) of the Grand Jury
Indictment articulates that Brooks was allegedly subject to prosecution under the
CSA because, “[t]he GENIUS, INC. investments offered and sold by BROOKS and
CAREW, evidenced in part by the promissory notes and agreements, constitute
securities' pursuant to§ 11-51-201(17) C.R.S., and as such, are subject to the
provisions of the Colorado Securities Act.” EF, pg. 5

1. Mendenhall found,

however, that not only does context otherwise require to determine whether “any
17

note” is a security (in direct violation ofMarine Bank), but the CCOA also noted the
“family resemblance test” adopted by the Court in Reves v. Ernst & Young, 494 U.S.
56, 64-67 (1990) applies to determine whether a note is a security for purposes of
the CSA. See Mendenhall, supra at ^ 37. This test was also adopted by the CSC in
Thompson, supra. Accordingly, the EF provides prima facie evidence establishing
Brooks was not involved in the selling securities when applying the family
resemblance test in Reves. Under the following four factors, the face of the record
rebuts the presumption that Brooks was involved in selling securities:

(1)

“First, we examine the transaction to assess the motivations that
would prompt a reasonable seller and buyer to enter into it. If the
seller's purpose is to raise money for the general use of a business
enterprise or to finance substantial investments and the buyer is
interested primarily in the profit the note is expected to generate, the
instrument is likely to be a ‘security.’ If the note is exchanged to
facilitate the purchase and sale of a minor asset or consumer good, to
correct for the seller's cash- flow difficulties, or to advance some other
commercial or consumer purpose, on the other hand, the note is less
sensibly described as a ‘security.’” Thompson, supra, at K 1.

Under the first factor, according to the EF, it is undisputed Brooks was raising
money to facilitate the purchase and sale of minor consumer goods—namely
electronics and appliances—and to correct for his cash flow difficulties. In this
IS

circumstance, the investment offered and sold by Brooks “is less sensibly described
as a ‘security,”’ because “[p]ayment terms ranged from a percentage of the principal
to a fixed amount, and payment schedules provided varying timeframes, normally
between twenty-one days and one month.” EF, pg. 3 ^ 3. Interestingly, “the statutory
definition [of a note] excludes only currency and notes of a maturity of less than nine
months.” Marine Bank. 455 U.S. at 556. In fact, Section 3(a)(10) of the 1934
Securities Exchange Act exempts “any note... which has a maturity at the time of
issuance of not exceeding nine months.” 15 U.S.C. § 78c(a)(10). While this Court
has never reached “the questions of how to interpret [this] exception” and has never
expressed a “view on how that exception might affect the presumption that a note is
a security,” Reyes, 494 U.S. at 65 n.3, “short-term notes are, as a general rule,
sufficiently safe that the Securities Acts need not apply” Id. at 73. By the rule then,
the Securities Act should not have been used in this case, but even ignoring the
dispositive fact, Brooks used investor funds, inter alia, to facilitate the purchase and
sale of a minor consumer good and to correct for his cash flow difficulties, as
outlined by the EF. Hence, “the agreement between [Brooks and his Investors] is not
the type of instrument that comes to mind when the term ‘security’ is used and does
not fall within ‘the ordinary concept of a security.’” Marine Bank. 455 U.S. at 559
{quoting Teamsters v. DanieL 439 U.S. 551, 556 (1979)). The first factor thus fails
to establish Brooks was involved in selling securities.
19

(2)

“Second, we examine the ‘plan of distribution’ of the instrument to
determine whether it is an instrument in which there is common
trading for speculation or investment.9,9 Thompson. supra at Tf 31.

Under this second factor, the “notes” offered by Brooks were unregistered,
private investment loans, and not traded on any exchange. They were not offered
and sold to a broad segment of the public, which has been “held to be necessary to
establish the requisite 'common trading’ in an instrument.” Reyes, 494 U.S. at 68. It
is also undisputed that there was no “plan of distribution” of the instruments and no
“common trading for speculation or investment.” Id. Fact is, “[investors act on
inevitably incomplete or inaccurate information, [consequently] there are always
winners and losers; but those who have Tost’ have not necessarily been defrauded.”
Basic Inc, v. Levinson, 485 U.S. 224,256 (1988) (quotins Dirks v. SEC. 463 U. S.
646, 667, n. 27 (1983)). Nor does “every instance of financial unfairness constitutes
fraudulent activity under§ 10(b) [which the CSA is fashioned after].” Cent. Bank. N
A. v. First Interstate Bank, NA.. 114 S. Ct. 1439, 1446 (1993) (quotins Chiarella v.
United States. 445 U.S. 222, 232 (1980)). Consequently, while the CSA has
numerous catchall provisions, “what it catches must be fraud,” id. at 1447, for
criminal sanctions to be levied. The CSA was never intended to become a broad
remedy for all fraud, nor was it created as a “scheme of investor insurance.” Basic

20

Inc.. 485 U.S. at 252. It is therefore undisputed that the “notes” Brooks was offering
could not establish a security under this second factor in any capacity.

(3)

“Third, we examine the reasonable expectations of the investing
public: The Court will consider instruments to be 1 securities' on the
basis of such public expectations, even where an economic analysis of
the circumstances of the particular transaction might suggest that the
instruments are not ‘securities5 as used in that transaction.”
Thompson, supra at Tf 31.

Under the public’s reasonable perceptions, this third factor also supports a
finding that the “notes” in this case were not “securities.” The investments were
never advertised and there are no countervailing factors that would have led a
reasonable person to believe these personal loans were securities. In fact, a year prior
to Brooks being indicted, his co-defendant, Scott Carew, and listed victim Michael
Laptalo sued Brooks in Weld County District Court. See Appendix H, Complaint
and Exhibits from Carew, etal, v. Brooks, etal. Case No. 2008CV58, Weld County
District Court. The entire Complaint did not mention the word “security” a single
instance. This establishes that not only did Brooks investors not believe these
personal loans were securities, but a versed lawyer drafting a lawsuit against
Petitioner did not believe they were either. Moreover, a template of the form
“Agreement” signed by all investors in this case proves that investors were providing
21

money “in the form of a loan or investment to Brooks, and/or GI (Genius, Inc.). See
Appendix I, Agreement of investor Tim Yost (“ATY’), pg. 1 f 6, BATES/Label
2148-2150. This template agreement shows up verbatim and repeatedly in Carew,
etal., v. Brooks, etal. supra. See Appendix H, Plaintiffs Exhibits 3,4, 5. Thus, “the
law of contracts in most, if not all, jurisdictions long has employed a process by
which agreement ...may be implied.” Perry v. Sindermann. 92 S. Ct. 2694, 2700
(1972) (quoting 3A. Corbin on Contracts§§ 561-572A (I960)). “And, ‘the meaning
of [the promisor’s] words and acts is found by relating them to the usage of the
past.’” Ibid. It is thus indisputable all investors in this case agreed to loan money to
Brooks, “a natural person,” ATY, pg. 1

3-4, whom could do whatever he wished

with investors’ money, or Genius Inc., “a Colorado corporation in good standing,
involved in the wholesale purchase and sale of electronics, appliances, and other
related products.” Id. While the EF frames the egregiousness of Brooks actions by
his allegedly spending “less than five percent of investors’ funds...to purchase
electronics and appliances,” EF, pg. 2,1, the admission proves Brooks business was
involved in the purchase and sale of electronics de facto. The AG simply omitted
and changed the entire foundation of reasons investors premised their investment.
Additionally, it can be presumed that a criminally usurious “note” would itself cause
“a reasonable investor” to call into question the validity of that investment decision.
Accordingly, if the short length or maturity of an investment has no bearing on
22

whether or not a “note” is exempted from being a security pursuant to§ 78c(a)(l 0),
then every single investor in this case was a criminal usurer because all had received
effective rates of interest that were criminally usurious and exceeded the statutory
limit pursuant to § 5-12-103, C.R.S. See Blooming Terrace No. L LLC v. KHBlake
St., LLC\ 2019 CO 58. The CSC even cited “Usury and Fiduciary Duty Concerns”
in adjudicating Thompson. That concern cannot be brushed aside, as investors used
Brooks to make large sums of money, none of which the AG attempted to recover
as ill-gotten gains. This third factor, therefore, fails to establish Brooks was involved
in selling securities.

(4)

“Finally, we examine whether some factor such as the existence of
another regulatory scheme significantly reduces the risk of the
instrument, thereby rendering application of the Securities Acts
unnecessary.” Thompson„ supra at 31.

Under this fourth and final factor, Brooks has established by clear and
convincing evidence that the “Agreements” signed by all investors in this case
significantly reduced the risk of the instrument, rendering application of the CSA
superfluous. The EF repeatedly outline that Brooks returned “investments from
individuals by promising an agreed upon return payable in a short period of time?
EF, pg. 2 H 5, “normally between twenty-one days and one month." Id. at pg. 3 If 3.
Because securities fraud jurisprudence under the CSA follows federal law, Brooks
23

again asserts that “the statutory definition [of a note] EXCLUDES only currency and
notes with a maturity of less than nine months,” Marine Bank. 455 U.S. at 556,
exempting him from liability under the Securities Acts entirely, as the Supreme
Court has made clear that “short-term notes are, as a general rule, sufficiently safe
that the Securities Acts need not apply.” Reves. 494 U.S. at 73. Moreover, investors
kept returning to Brooks to re-invest in these short-term deals, as repeatedly
referenced by the Indictment. For example, in Count One, Andrew Moore and
Michael Stradt “provided BROOKS with approximately nine hundred sixty one
thousand nine hundred sixty two dollars ($961,962.00)...in approximately thirty
seven (37) transactions.” See Appendix G, pg. 5, Count One. The reason 37
transactions occurred is because after each short-term deal Mr. Moore and Stradt got
every single penny back and then re-invested. These investors made large sums of
money, which is reason Andrew Moore is not listed in the restitution table. See
Appendix J, Restitution Table. The $307,867.43 Brooks still owes Mr. Stradt is also
not premised upon any principal and is only interest remaining. The AG never
attempted to recover millions of dollars in what can only be considered ill-gotten
gains, since the AG essentially posited Brooks business was partially fraudulent. In
any event, coupled with the short maturity dates of all the “notes” offered, if the
exemption pursuant to § 78c(a)(10) was not to apply, all investors in this case were
criminal usurers guilty of class six felony offenses.
24

Additionally, the “Agreements” offered by Brooks explicitly stated that
investors agreed to submit any disputes arising from the Agreements to arbitration
for resolution, which was to be “the sole method available for resolution of any
dispute.” ATY, pg. 3 ^ 2; see also Appendix H, Plaintiffs Exhibits. This Court has
specifically held that arbitration provides adequate means of enforcing the
provisions of the Securities Exchange Act, while the Securities Exchange
Commission has also specifically enforced arbitration. See Rodriguez de Ouiias v.
Shearson/American Express. Inc., supra (the arbitration clause in petitioners’
investment contract was not nullified by the Securities Acts.); accord
Shearson/American Express v. McMahon, supra; see also Mitsubishi Motors Corn.
v. Soler-Chrvsler-Plvmouth. Inc.. supra. See also Section III, infra.
Finally, Colorado’s Revised Statues (“C.R.S.”) are another regulatory scheme
that significantly reduced the risk of the instruments Brooks offered. In fact,
Colorado’s theft statute renders application of the Securities Acts completely
unnecessary in this case, as it provides Coloradoan’s protection against theft by
deception, as set forth in section 18-4-401 (l)(a), C.R.S., which “requires proof that
the victim relied on a swindler's misrepresentations, which caused the victim to part
with something of value.” West v. Roberts, 143 P.3d 1037, 1040 (Colo. 2006). The
AG, however, manipulated the CSA’s unconstitutionally overbroad definition of a
“note” pursuant to § 11-51-201(17), C.R.S. to allow the State of Colorado to
25

prosecute Brooks’ actions under the guise of a security—and the AG did this for
shameful reasons. Because the Grand Jury did not come back with theft charges
against Brooks, it concluded he did not intend to defraud anyone; however, the only
reason Brooks was indicted for securities fraud is due to the securities expert during
Grand Jury testimony answering the following question from a juror:

Juror:

Is it possible for someone to commit securities
fraud even if an investor had been paid everything
Brooks promised them?

Securities Expert:

Yes, it does not necessarily preclude a securities
fraud violation.

It was this erroneous testimony that led to Brooks being prosecuted for fraud
even when investors received “the total owed principal and interest from BROOKS.”
Appendix G, Counts 13 & 16. While the CSA has numerous catchall provisions,
“what it catches must be fraud,” Cent. Bank, NA. 114 S. Ct. at 1447, and this answer
provided by the securities expert was misleading at best, as he was describing
commissioners’ broad authority under the Securities Acts to seek prophylactic
relief—not criminal fraud violations. In any event, under this Fourth Factor, the short
duration of the “notes’ offered by Brooks, arbitration, and the C.R.S. all provide
adequate and effective remedies to significantly reduce the risk of the instrument to
investors, rendering application of the CSA superfluous and, in this case,
26

unconstitutional. Had the Grand Jury not been lied to, Brooks would have never been
indicted. Fact remains, Brooks was not involved in the selling of securities and “[i]f
there is no security, there cannot be securities fraud.” Mendenhall, supra at ^ 2.
III.

The State of Colorado Lacked Jurisdiction to Prosecute Brooks under the
CSA
The State of Colorado Lacked Jurisdiction to Prosecute Brooks Under the

CSA, as evidenced by the “Agreements” Brooks has shown to be used by all
investors in this case. See Appendices G, H. The Supremacy Clause provides the
constitutional foundation for federal authority to preempt state law. See U.S. Const.
art. VI, cl. 2 (“federal law shall be the supreme Law of the Land... any Thing in the
Constitution or Laws of any State to the Contrary notwithstanding.”); Kurns v. R.R.
Friction Prods. Corp.. 132 S. Ct. 1261, 1265 (2012). Preemption of state law, by
operation of the Supremacy Clause, can occur in one of several ways: express, field,
or conflict preemption. Id. at 1265-66. This issue involves a case conflict
preemptions because the State of Colorado could not prosecute Brooks under the
CSA due to every single investor in this case agreeing to arbitrate any statutory claim
to resolution “in an arbitral, rather than a judicial, forum.” Rodriguez de Ouiias. 490
U.S. at 483. Thus, the State of Colorado had no statutory authority to abrogate “the
strong language of the [Federal] Arbitration Act, which declares as a matter of
federal law that arbitration agreements ‘shall be valid, irrevocable, and enforceable,
27

save upon such grounds as exist at law or in equity for the revocation of any
contract.5 9 U.S.C. § 2” Rodriguez de Ouiias„ 490 U.S. at 483. Colorado courts have
conceded this fact in Meardon. supra, and the CSC has specially held the CSA has
not embodied a public policy that “prohibited a forum selection clause.55 Cagle, 2013
CO 7 at K 3. Consequently, “by agreeing to arbitrate a statutory claim, a party does
not forgo the substantive rights afforded by the [Securities] statute[s]; it only submits
to their resolution in an arbitral, rather than a judicial, forum.55 Rodriguez de Ouiias
490 U.S. at 481 (quoting Mitsubishi Motors Cory.. 473 U.S. at 628). As a result, the
State of Colorado violated the Supremacy Clause of the U.S. Constitution by
conflicting with the FAA, divesting Colorado from prosecuting Brooks under the
CSA as a matter of law.
IV

The CSA Lacking a Scienter Requirement Conflicts with Thoroughly
Established Constitutional Law.
It is undisputed Colorado’s legislature erroneously omitted scienter from

Colorado’s criminal statute under the CSA, while it remains in civil recovery
statutes. Compare § 11-51-604(3), C.R.S. (“willfully55) with § 11-51-602(2), C.R.S.
(“scienter55) and § 11-51-604(3), C.R.S. (“intent to defraud55). For purposes of clarity,
while term “willfully55 and “knowingly55 normally suffice to establish “evil intent55
in most jurisdictions, this is not the case under the CSA. Specifically, regarding
securities fraud jurisprudence in Colorado, the terms “willfully55 and “knowingly55
28

do not establish “[p]roof of evil motive or intent to violate the law, or knowledge
that the law was being violated.” Blair. 195 Colo, at 468. Compounding the
constitutional concern, when Brooks was being investigated by the Colorado
Division of Securities in 2008, commissioner Fred J. Joseph admittedly had no idea
“why the relief sought, whether criminal sanctions, civil injunctive relief, or licence
revocation, determines whether scienter is required?” In re: Marvin. Case No. XY07-04, 2008 Colo. Sec. LEXIS 29, *19. Irrespective of the facts, it is undisputed
Brooks currently stand convicted of crime without any evil intent, intent to violate
the law, or knowledge that the law was being violated, a clear Eighth Amendment
and Due Process Violation.
“We must start from the longstanding presumption, traceable to the common
law, that [Colorado’s legislature] intended] to require a defendant to posses a
culpable mental state regarding ‘each of the statutory elements that criminalize
otherwise innocent conduct.” Rehaif 139 S. Ct. at 2195 (quoting United States v. XCitement Video, 530 U.S. 64, 72 (1994)); see also Morissette v. United States, 342
U.S. 246, 256-58 (1952). “Scienter requirements advance this basic principle of
criminal law by helping to ‘separate those who understand the wrongful nature of
their act from those who do not.’” Id. at 2196 (quotingX-Citement Video. supra, at
72-73). While criminal enforcement of the CSA lacks a scienter requirement, this
Court has “interpreted statutes to include a scienter requirement even when the
29

statutory text is silent on the question...’even where the most grammatical reading
of the statute’ does not support one.” Ibid. Thus, the State of Colorado is required to
prove that the defendant knew his conduct was unlawful—“even though that was a
question of law.” Id. at 2198. The fact that Brooks was given a 32 year prison
sentence without any guilty knowledge is a clear Eighth Amendment violation,
irrespective of his guilt or innocence.
A.

Conflicts with Decisions of This and Other Courts

As discussed, Brooks prosecution conflicts with Rehaifl Morissette, Franklin,
Reves, Marine Bank, Basic Inc., Dirks, Cent. Bank, N A., Chiarella, Rodriguez de
Ouiias, McMahon, Mitsubishi Motors Corp., Aaron, and Hochfelder—as they are
all dispositive to this case because it is undisputed Colorado securities law must
coordinate with federal securities law “as evidenced by the wording of section 1151 -101(3).” Cagle. supra at <[[ 27. Thus, Colorado securities fraud jurisprudence
cannot deviate from these Courts precedents. Additionally, the Court has explicitly
clarified that “the consistent pattern in both the 1933 Act and the 1934 Act is to grant
the Commission broad authority to seek enforcement without regard to scienter,
unless criminal punishments are contemplatedAaron, 446 U.S. at 713-714;
Hochfelder. 425 U.S. at 205. Since the CSA has improperly removed scienter from
criminal prosecutions and because this Court mandates scienter be alleged and

30

proven when criminal sanctions are levied, Brooks could not have plead guilty to an
act the law does not make criminal.
Moreover, California’s Supreme Court has addressed the exact issue that
currently plagues Colorado, declaring that “since the civil remedy required scienter,
it would be unreasonable to conclude that when the legislature created the third tier
of enforcement by criminal prosecution, it intended to dispense with any element of
scienter while permitting a much greater sanction.” Simon, supra. It is, therefore,
unreasonable to conclude that when the Colorado legislature declared that
enforcement of the civil remedy for of a violation of § 11-51-501(1), C.R.S. requires
an “intent to defraud” pursuant to § 11-51-604(3), C.R.S. and scienter pursuant to §
11-51-602(2), C.R.S., it would have intended to dispense with any element of
scienter while permitting a much greater sanction for a criminal violation pursuant
to § 11-51-603(1), C.R.S. This logic proves that a criminal conviction for securities
fraud under the CSA always requires proof of “scienter” or an “intent to defraud”,
as the term “willfully” in Colorado securities fraud jurisprudence does not establish,
infer, or otherwise prove the requisite elements for criminal sanctions to attach under
the CSA. California’s Supreme Court also opined “Simon concluded that it would
be incongruous, and possibly unconstitutional, to impose criminal punishment—
presumably a more serious sanction than civil liability—without guilty knowledge

31

when civil liability required guilty knowledge.” People v. Salas. 37 Cal. 4th 967,
977 (2006) (quoting Simon. supra, 9 Cal.4th at pp. 516-518, 522.).
B.

Importance of the Questions Presented

The importance of the questions presented in this case cannot be overstated.
It presents a fundamental question of whether a defendant who is completely
innocent of any criminal offense can remain barred from having his claims of actual
innocence decided on their merits. It is difficult to imagine a strange equitable claim
for keeping open the courthouse doors than one of actual innocence, “the ultimate
equity on the prisoner’s side.” Withrow v. Williams. 507 U.S. 680, 700 (1993)
(nothing the Court has continuously recognized that “a sufficient showing of actual
innocence—is normally sufficient, standing alone, to outweigh other concerns and
justify adjudication of the prisoner’s constitutional claim.”).
The questions presented in this case are also of enormous public importance
because of AEDPA’s gatekeeping implications on the Suspension Clause when a
prima facie showing of actual innocence is demonstrated by a petitioner.
Furthermore, the case requires the Court to address the due process implications that
State courts must acknowledged as to the serious nature of the crime of criminal
securities fraud and respecting the right of United States citizens to be free from
severe criminal sanctions without blameworthy intent. This Court has also never
addressed criminal enforcement provisions under the Securities Acts. The
32

egregiousness of Brooks conviction becomes even more disturbing because Brooks
was charged with criminal securities fraud offenses even when investors received
“the total owed principal and interest from BROOKS.” See Appendix G, Counts 13
& 16. So, to be clear, even when investors received every single penny Brooks had
promised them in this case, he was still Indicted and subject to an 8-24 year prison
term for these two Counts, without anyone losing a cent or suffering any harm. This
undisputed fact should shock the Courts conscience!
The rational in enabling these sweepingly broad enforcement provisions under
the Securities Acts has also been clarified by the Court in the following excerpt:

“The reasons for this refusal to limit the Commission’s authority are not
difficult to fathom. As one court observed in the context of § 17 (a),
‘[impressive] policies’ support the need for Commission authority to seek
prophylactic relief against misrepresentations that are caused by negligence,
as well as those that are caused by deliberate swindling. SEC v. Coven, 581
F.2d 1020, 1027 (CA2 1978), cert denied, 440 U.S. 950 (1979). False and
misleading statements about securities ‘can be instruments for inflicting
pecuniary loss more potent than the chisel or the crowbar.’ United States v.
Beniamin. 328 F.2d 854, 863 (CA2), cert, denied sub nom. Howard v. United
States, 377 U.S. 953 (1964). And when misinformation causes loss, it is small
comfort to the investor to know that he has been bilked by negligent mistake
rather than by fraudulent design, particularly when recovery of his loss has
been foreclosed by this Court’s decisions.” Aaron, 446 U.S. at 716.
33

Aside from the fact that many investors in Brooks case suffered zero “loss”,
and while it may be of small comfort for the investor to know whether he has been
bilked by negligent mistake rather than by fraudulent design, it is of grave concern
for a defendant being charged with a criminal securities fraud offense. The degree
of culpability between negligent misrepresentation and deliberate swindling in this
case has resulted in some quite possibly the most egregious inequity this country has
ever seen. The disparate treatment that Brooks faced between committing a negligent
mistake—a cease and desist order—vs. deliberate swindling—276 years—is simply
shocking, as is the fact that Brooks’ plea was premised upon an inability to defend
his conscience actions. It is even more troubling considering Brooks could not even
defend himself from the accusation of deliberate swindling because the State of
Colorado only requires proof of negligent misrepresentation—which is what
“willfully” entails under Colorado’s statutory scheme—to have sent him to prison
for 276 years if he proceeded to trial. However, this Court has made clear that only
in instances of deliberate swindling are criminal punishments allowed to be obtained,
with scienter being plead and proven, as outlined in Aaron and Hochfelder.
Lasty, Colorado has unconscionably inverted the order of operations the
Constitution requires to satisfy the punishment Brooks has received. The State
eliminated an element required for civil liability to attach (“intent to defraud” or
34

“scienter”), alleged less criminal culpability to punish the offense (“willfully’), and
imposed a higher degree of punishment without expressly charging or even giving
fair warning to Brooks of what his conduct entailed, which clearly offends the
Constitution. “The Due Process Clause protects the accused against conviction
except upon proof beyond a reasonable doubt of every fact necessary to constitute
the crime with which he is charged.” In re Winship, 397 U.S. 358, 36(1970). The
State of Colorado, therefore, has not obtained a valid criminal conviction of Brooks
because they have not charged every fact necessary to constitute the crime of
criminal securities fraud to which Brooks plead and failed to give him and his
attorney’s fair warning as to the elements that constituted the crime Brooks was
alleged to have committed. Had Colorado’s legislature intended the bizarre result of
being able to impose an absurd criminal penalty of life sentences multiple times
over—while civil liability is avoided for the same offense—it would have expressly
provided for it in the text of the statute or comments and that has not happened.
Therefore, it is abundantly clear “on the face of the record the court had no power to
enter the conviction or impose the sentence” in Brooks case. Class. 138 S. Ct. at 806
(quoting Broce. 488 U. S. at 569.

35

CONCLUSION
Refusing to hear this case would be the very definition of a miscarriage of
justice. Brooks spent 12 years in prison for a crime that doesn’t exist, yet still is
having his liberty curtailed by parole. The face of the record clearly establishes that
Brooks was not involved in selling securities (resulting from section 11-51-201,
C.R.S. being unconstitutionally vague), nor did the State of Colorado even have
jurisdiction to prosecute him. Even ignoring this prima facie evidence, Brooks
conviction lacks any evil intent due to Colorado’s legislature unconstitutionally
omitting scienter from its criminal code. Brooks currently stands convicted of an
act the law does not make criminal and that fact cannot be ignored any longer.

WHEREFORE, for the foregoing reasons, certiorari should be granted in
this case.

Respectfully submitted on this 28th day of September 2021.

JasonTBrooks, Pro Se
636 Barberry Drive
Longmont, CO 80503

36

APPENDICIES
Decision by Tenth Circuit denying authorization for Petitioner to file a second or
successive habeas

A

Decision by Tenth Circuit Court of Appeals decision denying Petitioner the ability
to reopen his original judgment pursuant to Rule 60(b)(6)

B

Decision of Colorado Supreme Court denying Petitioners originally filed habeas
petition pursuant to Colorado Appellate Rule 21

C

Decision of Colorado Court of Appeals denying Petitioner authorization to file an
out-of-time direct appeal premised upon the decision in Class

D

to this petition.
Decision of the CSC upholding the CCOA’s decision precluding the out-of-time
direct appeal

E

Copy of Court of Appeals Unpublished Decisions

F

Copy of Grand Jury Indictment

G

Complaint and Exhibits, Carew, etal., v. Brooks, etalCase No. 2008CV58, Weld
County District Court

,H

Agreement of investor Tim Yost, BATES/Label 2148-2150

I

Restitution Table

J

